CERTIFICATE OF SERVICE
No. 19THE CHEROKEE NATION,
Petitioner,
v.
DAVID BERNHARDT, IN HIS OFFICIAL CAPACITY, ET AL.,
Respondents,
AND

UNITED KEETOOWAH BAND OF CHEROKEE INDIANS IN OKLAHOMA, ET AL.,
Intervenors/Respondents.
I, Carter G. Phillips, do hereby certify that, on this twenty-third day of
January, 2020, I caused three copies and an electronic copy of the Petition for a
Writ of Certiorari in the foregoing case to be served by first class mail, postage
prepaid, and by email, on the following parties:
AVI M. KUPFER
U.S. Department of Justice
Environment & Natural Resources
Division
P.O. Box 7415
Washington, D.C. 20044
(202) 514-3977
avi.kupfer@usdoj.gov
Counsel for David Bernhardt, in his
official capacity, et al.

KLINT AUSTIN COWAN
Fellers Snider Blankenship Bailey &
Tippens
100 North Broadway Avenue
Suite 1700
Oklahoma City, OK 73102
(405) 232-0621
kcowan@fellerssnider.com
Counsel for United Keetoowah Band of
Cherokee Indians in Oklahoma, et al.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

